<html>
<title> - CAMBODIA'S DESCENT: POLICIES TO SUPPORT DEMOCRACY AND HUMAN RIGHTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







   CAMBODIA'S DESCENT: POLICIES TO SUPPORT DEMOCRACY AND HUMAN RIGHTS

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2017

                               __________

                           Serial No. 115-97

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-812 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Olivia Enos, policy analyst, Asian Studies Center, Davis 
  Institute for National Security and Foreign Policy, The 
  Heritage Foundation............................................    12
Ms. Monovithya Kem, deputy director-general of public affairs, 
  Cambodia National Rescue Party (daughter of Kem Sohka, 
  president, Cambodia National Rescue Party).....................    24
Mr. Kenneth Wollack, president, National Democratic Institute....    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
Ms. Olivia Enos: Prepared statement..............................    15
Ms. Monovithya Kem: Prepared statement...........................    26
Mr. Kenneth Wollack: Prepared statement..........................    35

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
   CAMBODIA'S DESCENT: POLICIES TO SUPPORT DEMOCRACY AND HUMAN RIGHTS

                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2255, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
material for the record subject to length, limitations, and the 
rules.
    Well, good afternoon, everybody. And I can tell by the 
amount of participation in this room, this is a very important 
topic. And I want to thank you, the ranking member, my 
colleagues, and the panel for joining us today to discuss the 
events in Cambodia. We are holding this hearing at a 
consequential moment for Cambodia with serious implications for 
over 6 million of its citizens and for Southeast Asia and for 
democracy and human rights in the region.
    Cambodia is set to hold general elections in July 2018, 
which were predicted to be particularly significant for the 
country's progress toward genuine democracy. Recent elections, 
including the 2013 general elections and recent local 
elections, saw unprecedented gains for the Cambodia National 
Rescue Party, a consolidated opposition movement.
    Many observers believe that in 2018, the CNRP would win an 
unprecedented parliamentary majority. Unfortunately, Cambodia's 
authoritarian leader had other plans. Hun Sen, the sitting 
prime minister, has been in power for more than 30 years, and 
has no intentions of relinquishing power. In face of 
strengthening support for the opposition, it seems Hun Sen has 
decided that he can no longer dominate the polls, even in a 
rigged election system. He will retain power through force.
    Over the last years, his brutal consolidation of powers 
played out on numerous fronts. Hun Sen has chilled support for 
the opposition by threatening to deploy the miliary if 
elections do not go his way, and has used his control of the 
government to dismantle threats to his grip on power.
    Two years ago, two CNRP lawmakers were savagely dragged 
from their cars and beaten by Hun Sen's bodyguards. While the 
perpetrators served token sentences, they were promoted to 
colonel barely 2 weeks after being released. Such is the reward 
for crushing the opposition.
    In early September, authorities arrested Kem Sokha, the 
leader of the CNRP, and charged him with treason, allegedly for 
participating in an American plot to undermine Hun Sen's 
regime.
    Only last month, Cambodia Supreme Court dissolved the CNRP, 
again citing the party's involvement in an alleged U.S.-backed 
plot. The chief judge, who is an ally of Hun Sen, relied on 
legal authorities that were created by the regime's controlled 
Parliament this year to give the ruling party sweeping powers 
over competing parties. We are seeing this around the globe. 
One only needs to look at Venezuela, the same thing is 
happening there.
    To dismantle Cambodia's only credible opposition came amid 
a slew of other actions to eliminate dissenting--dissent among 
civil society. In August, the regime shut down the Office of 
the National Democratic Institute, a preeminent NGO that is 
active in promoting democracies around the world. Other NGOs 
have been investigated and subject to increased scrutiny.
    In recent months, the regime has forced the closure of 
independent media outlets that challenged its control over 
information, including Radio Free Asia, the Voice of America, 
and other publications and radio stations.
    Hun Sen's corrupt, oppressive regime perpetuates a culture 
of human rights abuses and restrictions of political freedoms. 
As Human Rights Watch finds, his rule has relied on security 
force violence and politically motivated persecution. Security 
forces commit killings and torture with impunity. The 
politically powerful have carried out forced evictions and 
illegal land grabs for decades. And again, we are seeing this 
in other parts of the world run by other governments. 
Government officials and judges are mirrored in corruption.
    Hun Sen's relentless consolidation of power this year means 
that these widespread abuses will continue. It goes without 
saying that this is an intolerable situation for the people of 
Cambodia.
    The White House deserves recognition for taking decisive 
actions on these issues. In November, the press secretary 
issued a strong statement on the regime's action to undermine 
democracy. And this month, the State Department began 
implementing visa restrictions for officials involved in these 
actions, but more must be done.
    The human rights and democracy in Cambodia have broad 
implications for the region and the world. Cambodia is a member 
of ASEAN, the premier international forum in Southeast Asia, 
with nine other nations, and accounts for 633 million people, 
and $2.5 trillion in trade. Every one of its 10 members must 
agree in order for the bloc to act, so any nation operating 
outside the bounds of humanity and decency will have an outsize 
effect on the entire group. This is such an important issue, 
not just for the Cambodian people, but for that whole region 
and, really, for the world.
    Hun Sen and his cronies are also clients of China. Chinese 
aid increases Hun Sen's resilience to international pressure, 
perpetuates corruption within Cambodia, and gives China undue 
influence within ASEAN. China's support of Hun Sen's regime 
shows that its policy's priorities are dramatically out of step 
with global humanitarian norm, despite China's rapidly growing 
global profile.
    It has been a difficult year for the cause of human rights 
and democracy in Cambodia, and the year ahead may even be 
harder. So in today's hearing, we will try to determine how 
Congress can best contribute to this cause.
    I thank the panel for helping to guide us in this important 
work. And, without objection, the witnesses' written statements 
will be entered into the hearing record.
    And I now turn to the ranking member, Mr. Sherman, for any 
remarks he may have.
    [The prepared statement of Mr. Yoho follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Sherman. Thank you. Thank you, Mr. Chairman.
    Mr. Yoho. Do you want my gavel?
    Mr. Sherman. No, no, you keep your wedding ring.
    The mission of this subcommittee is so important that even 
another subcommittee is having hearings on Asia, namely, the 
North Korea hearings being held by the Africa and Human Rights 
Subcommittee.
    Looking at this from a global standpoint, American 
resources are finite. We have a limited amount of foreign aid. 
We have a limited amount of preferential access that we can 
give to the United States' market, particularly with textiles. 
And if the Cambodian Government is unworthy of this, then 
perhaps we need to allocate it to poorer countries that are 
moving toward democracy.
    In the past two decades, the United States has invested 
hundreds of millions of dollars in Cambodia to help it on the 
road of recovery and to rebuild after the costly civil war. The 
international community has joined us in efforts to rebuild the 
country and move toward democracy.
    In addition to what we list as the expenses, that special 
access to American markets takes jobs away from Americans, 
takes jobs away from those in AGOA, takes jobs away from those 
in South Asia. Somebody is going to be making those garments, 
and that is an additional advantage we give to Cambodia.
    Organizations such as the NDI, represented here, the 
International Republican Institute, and Radio Free Asia, have 
engaged with local Cambodian partners in building a capacity 
for civil society. Despite this, Cambodia has been ruled 
continuously by Prime Minister Hun Sen and the Cambodia 
People's Party. Now, they were willing to share power in a 
coalition for some years. Prospects for democracy, though, have 
suffered setbacks in the last 2 years because the government 
has adopted policies aimed at eliminating the opposition.
    In 2015, the Cambodian Parliament passed the Law on 
Associations of Nongovernmental Organizations, LANGO, to revoke 
the registration of certain nongovernmental organizations. In 
August, Cambodia ordered the closure of the National Democratic 
Institute on the theory that it had violated LANGO. We have the 
president of that organization here, and you are to be 
commended for being effective, and that is why your 
organization was expelled.
    The Cambodian Government has also ordered radio stations to 
stop broadcasting. Radio Free Asia and Voice of America, these 
are vital sources of credible independent information for the 
people of Cambodia.
    Kem Sokha, the leader of the opposition, Cambodian National 
Rescue Party, was arrested just a few months ago on September 
3, and charged with treason and with conspiring with the United 
States Government to overthrow the Government of Cambodia. We 
have with us Kem Sokha's daughter, Ms. Kem, who will be a 
witness at these hearings. And the dedication of your family to 
the people of Cambodia is exemplified by your father's 
sacrifice.
    The CNRP's previous leader, Sam Rainsy, remains in exile. 
In November, Cambodia's Supreme Court ordered the Cambodian 
National Rescue Party to be dissolved. And I will point out 
that the charges against Ms. Kem's father are also charges 
against the Government and people of the United States claiming 
that we are trying to<greek-l>, quote, deg. ``overthrow the 
government.''
    The United States and our international partners must act 
quickly to stop this backsliding away from democracy. Toward 
that end, I have co-sponsored legislation with Congressman 
Lowenthal, the co-chair of the Cambodian Caucus, together with 
Mr. Chabot and others who are here.
    Our bill supports the decision announced by the Secretary 
of State on December 6 to restrict entry to the United States 
for individuals involved in undermining democracy in Cambodia. 
And it urges the executive branch to consider placing all 
senior Cambodian Government officials implicated in the 
crackdown on democracy on the list of specially designated 
nationals so they are subject to travel restrictions and 
freezes.
    We don't want to hurt the Cambodian people. We don't want 
to disrupt our investment in Cambodian society, but we do need 
to reevaluate our foreign aid and our special access. And we 
need to turn to our European friends and remind them that they 
too could be providing special access to poor people in Africa 
or South Asia, or they could be working with a government in 
Cambodia that is increasingly authoritarian.
    We strongly urge Cambodia's government to reinstate the 
political opposition, release Kem Sokha, allow civil society 
and media to resume their constitutionally protected 
activities, allow NDI back into Cambodia, and release former 
Radio Free Asia journalists who have been arrested on dubious 
charges.
    If the Cambodian Government does not take these steps and 
does not bring Cambodia on the path to genuine democracy, it is 
hard to see how the United States and our international 
partners could accept the legitimacy of next year's elections, 
or continue the economic aid and concessionary trade that so 
many other people in countries that are moving to democracy 
have asked to be directed in their direction.
    I yield back.
    Mr. Yoho. Thank you for your comments.
    And we have the honor and the great pleasure of having the 
chairman of the full committee, Mr. Ed Royce, to join us. So 
thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Chairman. And thanks for holding 
this hearing today on an issue that really needs worldwide 
attention and needs it now. And let me say, you know, the 
demise of democracy in Cambodia, the ongoing human rights 
nightmare in Cambodia, the violations that the Hun Sen regime 
is committing against basic human rights and the rule of law, 
this is the reason for this hearing. This is why we are so 
discouraged, but our hearts go out to the people of Cambodia 
with all they have been through, and especially since the 
elections back in 2013.
    We have seen such gross attacks on those Cambodians that 
peacefully oppose this growing authoritarian trend by the 
government. Hun Sen's regime, frankly, has become thuggish. It 
continues to crack down on the political opposition, arresting 
and beating those who speak out and oppose in any way they 
rule.
    Freedom House, you know, does an analysis every year, and 
it consistently rates Cambodia now as not free, but that is 
putting it very mildly. Two years ago, opposition lawmaker and 
American citizen, Nhay Chamroeun, was severely and brutally 
attacked by plainclothes bodyguards. Most of the world saw the 
photographs in the paper about what happened. They repeatedly 
kicked and stomped him. He was hospitalized for months.
    Several months later, Kem Ley, a popular Cambodian 
political commentator, was murdered in broad daylight. And why 
was he murdered? Because he had written. He had spoken out 
about some of these abuses.
    And over the last few months, Hun Sen has dispatched any 
notion that democracy in Cambodia is going to continue to be 
maintained under their rule. They have dissolved the CNRP. They 
arrested its leader, Kem Sokha, who faces very spurious 
charges, obviously, by the government. And despite deep flaws 
in 2013, for those of us that were watching those elections, 
there were big gains made by the opposition in those elections. 
And since that time, we have seen a complete dismemberment of 
the political system in Cambodia. Make no mistake, the 
government is now run by an authoritarian thug. That is the 
unfortunate fact.
    The Trump administration has responded with some positive 
steps: Last week's announcement of the visa ban on those 
undermining democracy. That is welcomed. But by no means should 
this be the last stop.
    And I look forward to hearing from our witnesses on what 
additional measures we should take to support Cambodia's 
democracy. That is what we are calling--we are a democracy 
here, we are calling on other republics around the world, other 
democratic institutions. Now is the time to come forward.
    And again, I want to thank the chairman for holding this 
very important hearing, Mr. Yoho, on a subject that demands, 
frankly, our attention, and doesn't get enough of our 
attention. So thank you again for doing this.
    Mr. Yoho. Thank you for joining us, Chairman Royce. It is 
an honor to have you here. And we are also blessed to have Alan 
Lowenthal, not a member of this committee, but from California, 
but is very passionate.
    And if I hear no objection, I will let him have 5 minutes.
    Hearing none, Mr. Lowenthal, you have 5 minutes, and I look 
forward to your comments. And thank you for being here.
    Mr. Lowenthal. Well, thank you, Mr. Chair. You know, I am 
very pleased that you called this timely hearing on Cambodia's 
dissent from democracy. And I also want to comment on Chairman 
Royce.
    You have been a steadfast proponent and champion for 
democracy, and you have been part of--you have been calling for 
reforms and changes in Cambodia for many years, and so I want 
to thank you too.
    You know, as we have already heard, the situation in 
Cambodia is dire. I am just going to go over a few things, and 
I think it is really important to say them again, because it is 
really important for the United States Congress and all those 
that are watching to understand the importance that we play on 
the situation in Cambodia today and why we are holding this 
hearing.
    We are witnessing the death of democracy. You know, 
Cambodian democracy really began in 1991 with the Paris Accord, 
which called for democracy, which called for ongoing free and 
fair elections, which have not occurred. And now we are 
witnessing this death of democracy, not by a single action, but 
in 1,000 recent cuts and 1,000 attempts by the Hun Sen regime.
    He has increased, as we pointed out, the intimidation 
against the opposition, CNRP. He has used political maneuvers 
to oust the former CNRP president, Sam Rainsy. He has arrested 
the current CNRP president, Kem Sokha, as we all know, and 
charged him with treason. And removed the rest of the CNRP from 
their posts in the Cambodian Parliament.
    He began a crackdown on nongovernment organizations, the 
NGOs, and the independent media, all of this in anticipation of 
the election, to eliminate all public comment and opposition to 
the elections next year. And as has been pointed out, the 
National Democratic Institute, Radio Free Asia, and others were 
forced to cease operations.
    Individuals related to the these groups were also arrested, 
such as two RFA reporters, who are now facing between 7 and 15 
years in prison for charges of espionage. The arrest of Kem 
Sokha by the Hun Sen regime, who has sent--when he sent armed 
forces to raid Kem Sokha's house and arrest him without a 
warrant and led him away in handcuffs. And as we know, the 
fictitious case against Kem Sokha, the Canadian Government has 
implicated the United States as a co-conspirator. I think that 
is really important for us to understand, that we have been 
identified as a co-conspirator in Kem Sokha's alleged crime of 
treason to topple the Cambodian Government.
    He is now being held in a maximum security prison near the 
border of Vietnam. And also what is very troubling is that 
China, in a very unusual step, weighed in publicly to support 
the arrest of the Kem Sokha. The Cambodian Supreme Court then 
ruled to dissolve the CNRP, and the Hun Sen controlled 
Parliament passed a rule, a law to redistribute the seats held 
by the CNRP to minority parties. Fifty-five seats were 
reassigned from the CNRP to these other parties. More than 
5,000 commune councilor positions won by the CNRP in the June 
local elections were redistributed to other minor political 
parties or these people were forced to defect if they wanted to 
stay on to the Hun--become part of the Hun Sen party. This 
essentially ended all political opposition to Hun Sen.
    Following these moves, it is to the White House's credit, 
that it announced that it would no longer support the 2018 
election in Cambodia, calling it illegitimate. I think it is 
really critically important that we are seeing the lack of 
legitimacy on the part.
    As co-chair of the Congressional Caucus on Cambodia, along 
with my other co-chair, Congressman Chabot, we have introduced 
a resolution, which is a companion resolution to the U.S. 
Senate passed McCain-Durbin resolution, which really cites the 
problems that are going on in Cambodia.
    I think I would just like to close and say also, I am 
really here to understand what are the next steps that we must 
do. We must support the efforts of our State Department. We 
must continue to educate. We must make sure that Kem Sokha is 
released. We must make sure that the CNRP is able to be become 
a viable political party once more. But I think we also must, 
as Chairman Royce has said, we must look at ways to reach out 
to the world, to our EU partners, our partners in Japan, who 
are the big trading partners of Cambodia, and speak with one 
voice that the world will not allow Cambodia to dissent from 
democracy.
    So I want to thank you, Mr. Chairman, again, for holding 
this hearing. It is critically important. You know, we spend 
time talking about crises in North Korea, in the Middle East; 
we are in danger, without looking at it as a specific crisis 
but an ongoing issue, of losing Southeastern Asia, and 
especially losing the one country that was moving toward 
democracy, which will now be lost. And so I am so pleased with 
you for holding this hearing, Mr. Chair. And I yield back.
    Mr. Yoho. Well, I appreciate your comments and your input. 
We will now go to opening statements from members, Mr. 
Rohrbacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing.
    I have been deeply involved with this issue with 
Congressman Lowenthal and Congressman Royce. We have spent a 
lot of time and effort trying to do what is right over the 
years, and I don't think we have accomplished what we wanted 
to.
    Mr. Lowenthal. It has gone in the wrong direction.
    Mr. Rohrbacher. It has actually gone in the wrong 
direction, like you say. I remember when Cambodia did have 
hope. I remember that after--we realized that the plight of the 
Cambodian people is something that was set in course because of 
America's foolish war in Vietnam. This is nothing more than an 
aftermath of that war. And it was a mistake for us to get into 
Vietnam, and the people of Cambodia are continuing to pay the 
price.
    The fact is that we know that Hun Sen was actually ferried 
into Cambodia on the back of Vietnamese tanks during an 
upheaval in trying to get rid of Pol Pot, and this type of 
turmoil has been a horror story for this wonderful group of 
people in Cambodia who deserve much more than what they have 
had to experience.
    Let me just say that American's greatest mistake, I think, 
was in 1993. I was there for that election, and the people 
actually voted against Hun Sen. And it was very clear that Hun 
Sen had lost the election. And our Ambassador at the time 
decided, oh, my goodness, they are threatening violence if we 
don't permit their--if we don't acquiesce to the demand that 
there be a sharing of power, and Hun Sen would be part of the 
sharing of power.
    That decision, that one decision, has condemned the people 
of Cambodia to oppression and corruption never--we never 
imagined. The fact is, Hun Sen, yeah, he was power-sharing and 
he brutally, slowly but surely, eliminated all the rest of the 
people who were sharing power and eliminated the democratic 
process.
    Today, what we need, and I am going to suggest this, I 
would like to hear about our witnesses, we should--we have a 
thing called the Magnitsky Act. Now, I happened to have voted--
I think I voted for the Act, but I was against the name 
Magnitsky, because I didn't think that that had been proven in 
that case. However, the principle of the Magnitsky Act is 
exactly the right thing, and that is, let's find out the 
specific tyrants and criminals that are plaguing innocent 
people, like the people of Cambodia, and hold them specifically 
responsible. And try to find out where they bank--put their 
money, where is their bank accounts, and actually find ways of 
putting the law against them. I would like to have your opinion 
on how we might do that in Cambodia.
    And, finally, let me just say this: If nothing else, today, 
we are telling the people of Cambodia, we are on your side. We 
are telling Hun Sen and his gang of criminals that now keep him 
in power, we are not on your side. We are on the side of the 
people of Cambodia and the side of a free and democratic 
Cambodia, and it is time for Hun Sen to go.
    Mr. Yoho. Thank you for your comments.
    We will next go to Mr. Chabot from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    I happen--as Alan mentioned, I am co-chair of the 
Congressional Cambodian Caucus, and we have been working on 
this for quite some time. I want to thank him for his 
involvement there, Chairman Royce, and many others. And as Mr. 
Lowenthal mentioned, there is a resolution that we are 
submitting today, which essentially reaffirms the United 
States' commitment to democracy, human rights, and the rule of 
law in Cambodia.
    That being said, although there were some bright spots 
awhile back with respect to Cambodia, I have to say that, under 
Hun Sen, we are about as far from a democracy as you can get. 
Shutting down independent press, suppressing opposition and 
civil society, threatening civil war if your party doesn't win, 
jailing your political opponent, and then dissolving their 
party so there is essentially no opposition, that is not a 
democracy. And so they are jeopardizing their relationship with 
the United States and the West. But they think, oh, that is 
okay because we have China on our side. And it is not 
surprising, because that is one of the other countries on this 
globe which has just about as much democracy as Cambodia does 
right now, which is zero.
    And so if they want the human rights and the democracy of 
the PRC, that is what they are--that is what they are getting. 
And the Cambodian people deserve so much better than that, 
particularly when you consider the trauma that this nation has 
been through, where approximately a quarter of the population 
was wiped out under the Khmer Rouge.
    And so, in any event, it is a terrible shame and travesty 
what is occurring in Cambodia right now, because it could be so 
much better. But this leader will not let the people of 
Cambodia decide who is going to control the country and who is 
going to rule the country and who--he wants it for himself. And 
it is just a shame.
    But, people of Cambodia, know that you have a lot of 
friends here in this country and all around the globe that are 
pulling for you and what is best for you. And so we hope that 
this hearing will draw some attention to that.
    That being said, I also am the co-chair of the 
Congressional Turkish Caucus, and we had a meeting that started 
at 2 o'clock that I have to run to, but I will be back if we 
get finished there.
    And, Alan, thank you for your hard work in this area.
    I yield back.
    Mr. Yoho. Thank you for your comments.
    Does any other members have opening statements? Mr. Brooks?
    Mr. Brooks. No, sir. I am just waiting for the witnesses.
    Mr. Yoho. All righty. And we are going to do that right 
now.
    Ms. Oliva Enos, policy analyst at the Asian Studies Center 
at The Heritage Foundation. Thank you for being here. Ms. Mona 
Kem, daughter of the person that is in jail, your father--I 
can't imagine how hard this is for you to be here--deputy 
director-general of public affairs to the Cambodia National 
Rescue Party, and daughter of Kem Sokha, president of the 
Cambodia National Rescue Party. And Mr. Kenneth Wollack, 
president of the National Democratic Institute.
    If you guys would--you have your timer up there. The green 
light is the beginning, it is 5 minutes. We will gently let you 
know when time comes up, and keep your remarks there. And then 
we look forward to getting your information so that we can help 
draft resolutions and direct policies for our government to, 
hopefully, bring this situation in Cambodia to an end.
    So, with that, Ms. Enos, go ahead.

  STATEMENT OF MS. OLIVIA ENOS, POLICY ANALYST, ASIAN STUDIES 
   CENTER, DAVIS INSTITUTE FOR NATIONAL SECURITY AND FOREIGN 
                POLICY, THE HERITAGE FOUNDATION

    Ms. Enos. Chairman Yoho, Ranking Member Sherman, and 
members of the subcommittee, thank you for the opportunity to 
testify before you this afternoon.
    My name is Olivia Enos. I am a policy analyst in the Asian 
Studies Center at The Heritage Foundation. The views I express 
in this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
    Cambodia's democracy is in peril. On September 2, Kem 
Sokha, president of the opposition Cambodia National Rescue 
Party, CNRP, was taken from his home, arrested, and 
indefinitely imprisoned on trumped up charges of treason. Kem 
Sokha's arrest triggered a downward spiral. Just a month later, 
on October 6, the Cambodian Interior Ministry filed a lawsuit 
to dissolve the opposition party. The CNRP was officialty 
dissolved by the Cambodian Supreme Court on November 16.
    In just 3 months' time, Hun Sen, the leader of the ruling 
Cambodian People's Party, CPP, has eviscerated the CNRP, 
effectively crippling the only viable opposition to Hun Sen's 
32-year reign, ahead of 2018 elections.
    Since Kem Sokha's arrest, at least 100 CNRP 
parliamentarians and political leaders fled Cambodia. And the 
crackdown on civil society is severe. Shortly after Kem Sokha's 
arrest, Hun Sen proclaimed that he will rule for another 10 
years.
    The CPP's anemic electoral victory in 2013 was too slim for 
Hun Sen. In 2013, the opposition garnered 55 of the 123 seats 
in the assembly, leaving the ruling party with only 68 seats. 
Clearly, Hun Sen does not want to risk a potential opposition 
victory in 2018, which is why he has shut down the opposition 
long before it could become a viable threat to his three 
decades' long grip on power. Since the opposition was 
dissolved, the White House has stated that<greek-l>, 
quote, deg. ``on current course, next year's elections will not 
be legitimate, free, nor fair.''
    The U.S. Government response has gotten increasingly 
stronger. After releasing several statements, the Department of 
State took concrete action by pulling U.S. support for upcoming 
2018 elections, and just last week, by restricting travel for 
individuals involved in undermining democracy in Cambodia.
    Congress has taken similarly positive steps to hold the 
Cambodian Government to account. A bipartisan resolution 
introduced by Senators McCain, Durbin, and Rubio passed the 
Senate on November 17, and affirmed U.S. commitment to a 
democratic Cambodia, reiterated the value of the Paris Peace 
Agreements, and condemned the crackdown on civil society. The 
resolution also called for Treasury to consider placing all 
senior Cambodian officials implicated in the abuses on the 
Specially Designated Nationals list. Cambodia is at a 
crossroads, and the U.S. Government, in conjunction with the 
international community, should take action to hold Cambodian 
officials accountable.
    In 1993, after the defeat of the Khmer Rouge, the U.S. and 
18 other international signatories to the Paris Peace Agreement 
agreed to ensure the right to self-determination of the 
Cambodian people through free and fair elections. In this 
regard, signatories have a continuing moral obligation to 
assist Cambodia when the political process falters.
    In my written submission, I offer several potential policy 
solutions to the current crises in Cambodia. Right now I will 
offer three.
    First, the U.S. should consider sanctioning all individuals 
involved in undermining democracy in Cambodia under relevant 
Treasury Department authorities. Raising the financial risk to 
engaging in such behavior has the potential to deter future 
actions that erode democracy. Potential mechanisms could 
include invoking the Global Magnitsky Act, which allows 
individuals to be targeted on human rights and corruption 
grounds, or by placing individuals on this Specially Designated 
Nationals list, as was recommended by Senate Resolution 279.
    Second, the U.S. Government should consider forming a 
Cambodia contact group comprised of key signatories to the 
Paris Peace Agreement. These signatories could include the 
U.S., Japan, Indonesia, Australia, the U.K., and France. Japan, 
in particular, has a critical role to play, but has thus far 
not done much in response to recent events in Cambodia. Given 
the severe deterioration in democracy there, the group should 
reassemble to provide accountability and develop plans to get 
Cambodia back on the path of political reform.
    Third, and finally, the U.S. should continue to publicly 
and privately press for the release of Kem Sokha. The U.S., 
along with other partners, such as the European Union, should 
draw attention to threats to democracy in Cambodia. Calling for 
Kem Sokha's release is the surest way to do that. In 
particular, statements from high ranking officials, such as the 
Secretary of State or the Deputy Secretary of State, may deter 
Hun Sen from further degenerating democracy in Cambodia.
    Thank you for your time and attention. I am now open for 
questions.
    [The prepared statement of Ms. Enos follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ----------                              

    Mr. Yoho. Thank you for your comments there.
    And now we will go to Ms. Kem.
    And, you know, I know this has got to be a hard thing, you 
know, talking about this in front of this committee with your 
father, Kem Sokha, incarcerated right now. So I would love to 
hear from you, and thank you for being here.

  STATEMENT OF MS. MONOVITHYA KEM, DEPUTY DIRECTOR-GENERAL OF 
PUBLIC AFFAIRS, CAMBODIA NATIONAL RESCUE PARTY (DAUGHTER OF KEM 
       SOHKA, PRESIDENT, CAMBODIA NATIONAL RESCUE PARTY)

    Ms. Kem. Chairman Yoho, Ranking Member Sherman, and members 
of the subcommittee, thank you so much for this opportunity to 
testify today on the fragile state of Cambodia's democracy and 
the important role that the U.S. can play to protect the 
political rights of the Cambodian people in the lead up of our 
national election, which is scheduled for July 2018.
    Twenty-six years after the signing of the Paris Peace 
Accord, Cambodia is once again facing a historic crossroads, 
which two options present. One, restoring democracy or 
dissenting into downright dictatorship.
    The fundamental elements of the Paris Peace Accords have 
been violated by the ruling elites, and some of those 
violations--recent violation include, number one, the November 
16 dissolution of the main opposition party, the CNRP, and the 
theft and redistribution of our seats, 55 seats in the national 
assembly to unelected smaller parties.
    Number two, the unconstitutional and midnight arrest of the 
opposition leader, Kem Sokha, my father, without warrant, by 
heavily armed police raided into his house after midnight. That 
violated his parliamentary immunity. That echoed the terrifying 
tactics and divisive rhetoric of Cambodia's darkest past, the 
Khmer Rouge.
    And, number three, the banning of 118 CNRP leaders from 
participating in politics, and the removal of about 5,000 of 
our commune councillors who were just elected earlier this year 
in June.
    And, number four, the crackdown on independent media and 
civil society. Most brutally, the broad daylight assassination 
of the political analyst, Dr. Kem Ley.
    Democracy and freedom are American values that echo 
universal ideals. I believe your country bedrock values 
resonate well with the Cambodian people's desire for change 
that is felt by all Cambodians of all walks of life. And it is 
not only the moral responsibility of the U.S. to protect 
democracy and human rights in Cambodia, I believe it is also in 
the U.S. interest.
    The U.S. benefits by staying engaged in Asia to uphold the 
international rule-based order that underpins the global 
commerce and international security. So it is both in your 
interest and in protecting your values. The U.S. has already 
sent a clear signal, I believe, to the Cambodian Government in 
holding them responsible for the regression.
    I want to thank both Houses of Congress. I want to thank 
the White House, the State Department, especially for the 
banning of--the visa ban that was placed last week, and also 
the continuous call for the release of Kem Sokha, without 
condition, and of other political prisoners, for free and fair 
election in 2018.
    But it is important now that the U.S. place and force a 
deadline. It is very important to place a deadline with the 
Cambodian Government. If the Cambodian Government does not 
reverse course on time, as soon as possible, I believe further 
action needs to be taken by the U.S. And that include, number 
one, placing individual targeted sanctions on Cambodian 
Government officials that have been identified as undermining 
democracy through the global Magnitsky Act, or on the SDN list, 
as recommended by the Senate.
    Number two, suspending any and all assistance that go 
directly to central Cambodian Government, including security-
related assistance, as proposed by the Senate, State, and 
Appropriation Operation bill.
    Number three, continue to provide democracy assistance to 
civil society, especially the NGOs that work on election-
related matters.
    Number four, reviewing Cambodia's eligibility for the 
generalized system of preferences, and sending a notice of that 
review as soon as possible to the Cambodian Government so that 
they have incentive to backtrack.
    Number five, coordinating with like-minded countries and 
entities, such as Japan, the EU, Australia, and South Korea, to 
use their leverages in calling for the Cambodian Government to 
reverse course.
    And, finally, number six, convening key signatories of the 
Paris Peace Accord to organize a synchronized global response 
to the Cambodian Government, because they have been attacking 
all the elements of the Paris Peace Accord.
    The current oppression, I believe, if continued to--if 
allowed to continue, will generate political instability, 
because oppressed dissent tends to boil over, and then 
eventually that will lead to economic instability as well.
    So I urge you to remain resolute in your call for the 
release of Kem Sokha and other political prisoners, for free 
and fair election in 2018 in Cambodia. And I believe Cambodia 
is worth your attention and action, because this crossroad 
actually presents an unprecedented opportunity that the country 
has not seen for decades. Big changes can happen, and we are an 
inch away from it.
    Democracy is very much possible and it can happen very 
soon, and the U.S. can play a big role in helping Cambodia, 
telling an inspiring story to the world, that democracy can 
persist. Thank you.
    [The prepared statement of Ms. Kem follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
                              ----------                              

    Mr. Yoho. Well, we appreciate it and you coming here 
testifying. That gets that message out to the world, and we 
will help you with that.
    Mr. Wollack, from--the president of the National Democratic 
Institute. Go ahead.

     STATEMENT OF MR. KENNETH WOLLACK, PRESIDENT, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Wollack. Mr. Chairman, Ranking Member Sherman, thank 
you for this opportunity to testify before the subcommittee on 
developments in Cambodia.
    I am honored to appear here with Mona Kem. She and her 
imprisoned father are courageous champions for democracy in 
Cambodia.
    And let me summarize my written testimony with these 
comments.
    As has already been said here, the recent action by the 
Cambodian Government and the ruling CPP to dissolve the 
opposition CNRP, effectively transformed the country into a 
one-party state. The arrest of Kem Sokha, the leader of the 
CNRP, on spurious charges, the banning of over 100 opposition 
leaders from political activities, the arrests of political 
activists, and the crackdown of independent news media and 
civil society, have isolated the country and put its further 
development in serious doubt.
    These and previous actions by the Cambodian Government are 
a clear violation of the spirit and letter of the 1991 Paris 
Peace Agreement, which ended the nation's 12-year civil war. 
That agreement, which Mona referred to, was signed by 19 
governments, including the United States and China, and 
required Cambodia to respect human rights and called for 
Cambodia to follow a system of liberal democracy on the basis 
of pluralism. And I would recommend strongly a rereading of the 
provisions of that important document.
    When the 1991 Paris Peace Agreement was signed, Cambodia 
was emerging from decades of war, the genocidal Khmer Rouge 
regime, and the Vietnamese occupation. The country was 
economically devastated, and the institutions of governance 
weak or nonexistent. In some areas, much progress has been 
made, largely due to the hard work by thousands of Cambodians 
and international donors.
    The U.S. has played a major role in the country's 
development, funding projects in the fields of agriculture, 
education, and public health, and strengthening the electoral 
system, rule of law, political parties, and civil society.
    NDI has focused its efforts in Cambodia on developing 
governance and building a more democratic political party 
system. Since 1992, NDI has sponsored hundreds of community-
level multiparty dialogs, offering villagers the opportunity to 
engage in local governance, sponsored election campaign 
debates, and assisted citizen organizations to monitor the 
elections. We have also carried out programs, and I emphasize 
here, with both the ruling and opposition parties alike, to 
participate in elections, monitor polling, develop greater 
opportunities for women and youth, and build more democratic 
party structures.
    Since the transitional period began in 1991, the ruling CPP 
has dominated the political landscape, maintaining control of 
the police, the military, civil bureaucracy, and virtually all 
of local government. However, the Peace Accord spawned a large 
number of civil society groups, which were able to operate, at 
times, with a surprising amount of freedom. Political parties 
too have had some space in which to operate. Although the 
government used civil defamation suits, the party registration 
law, and the filing of criminal charges to keep the opposition 
off balance.
    At the same time, Cambodia's political history since the 
Paris Peace Accords can be characterized as a period marked by 
three distinct coups. The first coup occurred when the results 
of the 1993 elections, conducted by the United Nations 
Transitional Authority in Cambodia, UNTAC, were in effect 
overturned by the CPP, as Mr. Rohrbacher pointed out.
    The second occurred in 1997 when Hun Sen brutally and 
violently overthrew his coalition partner, FUNCINPEC, and 
forced the opposition into exile.
    The third coup, of course, occurred this year when the 
government disbanded the CNRP, the only opposition party that 
could effectively challenge them. The opposition strength was 
clearly growing, as has been noted here. In the 2013 national 
elections, the CNRP made a strong showing, increasing their 
seats in Parliament by nearly 50 percent, while the CPP saw 
their representation decline by 25 percent.
    In the elections' aftermath, the CPP-led government became 
increasingly repressive, stepping up actions against civil 
society and the political opposition. Its motivation was 
obvious. The CPP's own internal polling, leaked to the press, 
showed the ruling party facing stiff opposition in the upcoming 
local and national election. And I would suggest rereading some 
of the questions in that poll that are included in my written 
statements. They actually foreshadow the exact actions taken by 
the CPP.
    Commune council elections were held last June, resulting in 
a strong showing for the CNRP, which won 44 percent of the 
total votes cast. On August 23, NDI received a notice from the 
government ordering it to close its office and withdraw its 
international staff from the country within 7 days. The Voice 
of America, the Radio Free Asia, were also shuttered, as were 
dozens of local broadcast stations which carried VOA and RFA 
programming. The Cambodia Daily, the Independent English 
Language newspaper that had been operating since 1963 was 
forced to close.
    The government's actions are clearly designed to maintain, 
at any price, the ruling party in power. They also place 
Cambodia more firmly in China's orbit. While the Cambodian 
Government was widely condemned by the international community 
for its recent repressive measures, China was quick to offer 
support, ignoring the provisions of the Paris Peace Agreement 
to which it is a signatory.
    I want to recognize the actions taken by the U.S. 
Government in terminating assistance to Cambodia's election 
commission, and imposing visa restrictions on those Cambodian 
officials responsible for undermining democracy. These actions 
are important because they demonstrate that concrete measures 
will be taken unless certain conditions are met.
    Let me just summarize by recommending possible other 
actions that could be taken. Number one, the withdrawal of all 
but humanitarian aid to the Government of Cambodia.
    Two, continued support of nongovernmental organizations 
within Cambodia.
    Three, altering the terms of trade with Cambodia, the 
U.S.'s largest export market for Cambodian goods, receiving 25 
percent of Cambodian exports. The EU is the next largest. This 
provides leverage for inducing positive change.
    Four, increase international pressure and dialog. Following 
the 1997 coup, an informal diplomatic network known as the 
Friends of Cambodia Group, helped Hun Sen and the political 
opposition come to an agreement on conditions under which the 
exiles would return to Cambodia to participate in national 
elections the following year. The U.N. withheld recognition of 
the government at that time, and similar moves might help pave 
the way for new negotiations.
    And, finally, supporting the return of exiled political 
leaders. The CNRP remains a legitimate political force within 
Cambodia. However, over 100 opposition leaders and elected 
officials are in exile. As in 1997, continued support should be 
provided to the exiled opposition to help them convene and to 
communicate with their supporters and the international 
community. Thank you very much.
    [The prepared statement of Mr. Wollack follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Yoho. Thank you for your testimony, all of you. I 
appreciate it.
    Everybody has brought up the elections of 2013 and the 
elections last summer, this past summer, that resoundingly 
showed the will of the people, you know, is what we saw with 
the numbers that are favored and the growing popularity and the 
growth of the CNRP. I think this speaks loudly. But what we are 
seeing is, we are seeing the world divide diametrically opposed 
philosophies with Western ideologies.
    The universal principles--and, Ms. Kem, you brought up what 
we believe here in America, but I think if we all look at 
people around the world, and I have had the opportunity to 
speak to people all over, there is innate beliefs that we all 
have: Liberty, freedom, self-will, self-determination. Those 
are universal beliefs that, I believe--my beliefs are that 
everybody has those in the world.
    Where we start dividing this or start bringing--preventing 
this is when you have authoritarian governments. And, you know, 
we look at the beliefs that we have here that government is by 
the people, to serve the people, versus the authoritarian type 
that we are seeing, especially with the rise of China after the 
19th Congress, where Xi Jinping said the era of China has come 
and it is time to take the center stage of the world. And I 
just I read an article where they said the purpose of the 
citizens, their sole purpose is to serve the government.
    You know, in our forum, we have the government is there to 
serve the many. Whereas, theirs--their people are to serve the 
government of a few. And we know those regimes don't last 
longterm.
    And, you know, saying that, I look at the amount of aid we 
have given Cambodia. My figures show from 1993 to 2016, aid to 
Cambodia was $1.7 billion in aggregate aid. One-point-seven 
billion dollars. A lot of this goes in the name of good 
governance, building democracies. And it is something that we 
can't wish upon another country, but we know it works pretty 
darn well here. It has for the last 226 in our constitutional 
republic. And it is something that we know, again, that the 
innate feeling of people everywhere want what we have, and so 
we have invested in this.
    What I would like to know from you is, what programs have 
you seen work the best? And we will start with you, Ms. Kem. 
Your feelings with the investment that we have made--the 
American people have made. What is your opinion on where we 
should keep going or should we just pull back and pull back 
everything?
    Ms. Kem. Thank you, Chairman, for the question. I think 
what is most helpful so far in Cambodia is a democracy program 
that involves direct citizen participation. I can give one 
example of the Cambodian Center for Human Rights, which was 
funded, and I believe still funded, partly by USAID in some 
form. So any program that works directly and encouraging 
people, empowering people to understand their rights, to stand 
up for their freedom.
    And, also, I would say, number two, because of the timing 
of the election, any program that works with NGOs, that works 
on election-related matters, whether it is investigation or 
monitoring of election.
    Mr. Yoho. Is that possible now that he has cracked down on 
everything, you know, and gotten rid of the opposition party? 
Is that possible to do that in that country?
    Ms. Kem. There are still a few effective organizations. For 
example, COMFREL, they work on elections, and I believe that 
their job is extremely important, as important as the presence 
of the opposition. They are an election watchdog and their work 
has been significant. For example, in 2013, without their 
documentation, we would not have known all the----
    Mr. Yoho. And their job may be easier in the next election, 
right, because there is no other party other than the one he is 
going to allow run.
    Ms. Kem. In the case that there will be election, we want 
to be prepared that these watchdogs are equipped with the right 
knowledge and right tools to do their job.
    Mr. Yoho. All right. Given the actions of Hun Sen and the 
regime has taken against the CNRP, what is the opposition's 
current plan of action?
    Ms. Kem. We have two things, really. We have the Cambodian 
people inside a country, but as of right now, there is very 
little they can do because of physical threats, really. So 
another channel for us would be through the international 
community. And I believe in the Cambodian context, the donor 
community has more of an obligation than any other country 
because of the Paris Peace Accord binding.
    So for us, we will continue to advocate for the 
reinstatement of our party. And, again, timing is of essence. 
If there is no solution soon--soon, we are talking about the 
end of this year, or the latest I would say at the end of next 
month--then any possibility of free and fair election is 
impossible. Then we would have to rethink, so what is next. And 
I think the international community and the Cambodian people 
together will pave a way for us to go back and restore 
democracy.
    Mr. Yoho. Okay. Thank you.
    I am going to turn to the ranking member and let him ask 
his questions. Thank you.
    Mr. Sherman. Ms. Kem, how would you describe the current 
status of your father, Kem Sokha, the head of the CNRP? We know 
he was arrested on this ridiculous charge of treason. And how 
can the United States and the international community work to 
ensure that he is treated justly and released?
    Ms. Kem. So far, I believe that they deny any visit access 
from outside. The only people that can visit him is my mother 
and his lawyers. He is kept in solitary confinement, and he has 
no access to the outside world, except through my mother. And I 
believe what the U.S. can do is continue--the U.S. and its 
allies, meaning the EU, Japan, and the other countries, is 
continue to press for at least a visit to see how he is doing. 
And also to communicate already to the Cambodian Government 
about any repercussions should they mistreat him. I think that 
is very important to preempt.
    Mr. Sherman. Has he been denied medical attention or 
pharmaceuticals?
    Ms. Kem. So far, I believe a group of doctors has seen him 
once.
    Mr. Sherman. Mr. Wollack outlined a number of steps that we 
would consider. I think it is now time for us to step up to the 
business community in the United States and hopefully get 
European governments to do the same, and Japan's governments to 
do the same, to put in American law that says, if we decide to 
forego this special access to U.S. markets, that any company 
buying garments from Cambodia can immediately void its 
contract. So we can put that in as a matter of law, that is 
deemed by law to apply to any contract, and we can demand that 
no U.S. company can sign a contract in the future that doesn't 
specify that, so that there is no doubt that it applies. That 
would have the effect of putting every garment manufacturer in 
Cambodia on notice that their contracts are hanging by a 
thread.
    Ms. Enos, how dependent is Cambodia upon its ability to 
export garments to Europe, Japan, and the United States?
    Ms. Enos. Well, I would say that one of my concerns with 
pursuing this type of strategy would be that it has the 
potential to harm the Cambodian people more than to----
    Mr. Sherman. Keep in mind, it dramatically helps the people 
of Africa, dramatically helps the people of South Asia. We are 
only going to buy a certain number of shirts. I know your focus 
is on helping the people of Cambodia, but what we give to 
Cambodian manufacturers undermines democracy in Cambodia and 
takes jobs away from sub-Saharan Africa.
    Again, Mr. Wollack, do you have an answer on just how 
dependent the Cambodian Government is?
    Mr. Wollack. They are very, very dependent. My only 
recommendation would be on these issues of sanctions. As we----
    Mr. Sherman. And notice, I wasn't saying sanctions. I was 
saying let us have contractual provisions so that if in the 
future we have sanctions, we don't have American companies in 
violation of contracts. Go ahead.
    Mr. Wollack. My only recommendation would be, as we did in 
South Africa, as we do in Venezuela, in Cuba and other places, 
is to consult with local democrats, those in Phnom Penh and 
those outside the country.
    Mr. Sherman. Including one sitting next to you, yes.
    Mr. Wollack. Exactly. To hear their views and----
    Mr. Sherman. I mean, the next step is to be legally 
prepared to move forward. That sends a message and hopefully 
will result in the changes, because we propose steps we can 
take against individuals. Well, I am not sure they want to go 
to Disneyland, and even if they do they can go to Shanghai.
    We talked about cutting off foreign aid. I am not sure that 
that will get the attention. Their focus is on maintaining 
power. So we have to at least prepare the ground for something 
that goes beyond that. Now, NDI has been kicked out. Is RII 
still operating in Cambodia?
    Mr. Wollack. Well, RII did not have international staff in 
Cambodia to----
    Mr. Sherman. Are they moving in to fill in for you?
    Mr. Wollack. Well, I doubt whether that will be the case 
because they have been under--they are under attack.
    Mr. Sherman. So it is not like they are just going to go 
after the D. They are willing to go after the organization 
affiliated with the President's party as well.
    Mr. Wollack. Yes. They have been attacked rather 
vociferously over the last few months as well.
    Mr. Sherman. I yield back.
    Mr. Yoho. Thank you. We will next go to Mr. Rohrabacher 
from California.
    Mr. Rohrabacher. I think that, well, number one, we are 
sending a message by this, as I mentioned in my first 5 
minutes, and it is important that that message is very clear. 
Hun Sen has got to go. The United States is on the side of the 
Cambodian people who want a more democratic and honest 
government, and that is that. That is the number one message.
    So, number two, about this hearing, maybe we can get down 
to some brass tacks on something that we can do. And let me 
just say, after my long period of time that I have been friends 
of the Cambodian community here and the Cambodian people, one 
message I would like to send to them is America just can't do 
it for you. This is not going to be a gift.
    Every time I talk to my Cambodian friends, they are saying, 
well, when are the Marines going to come and get rid of Hun Sen 
so we can then take over the government and have free 
elections? It ain't going to happen. So we have got to find--
that is number two message: Don't wait for the American 
military might to displace Hun Sen.
    So what is the third step? So what do we do with Hun Sen? 
What do we do? What is the exact pattern? Ms. Kem, you gave 
some very good suggestions there. I am going to get into a 
little detail on it now. Maybe we should have, Mr. Chairman, a 
list of individuals in the Cambodian Government and 
corporations, both individuals and corporations that are from 
other countries, who are there profiting from the corruption of 
the Hun Sen regime. And there should be some kind of economic 
sanctions on them. It is like the Magnitsky Act, so to speak.
    Now, right now there is a lot of--for example, there are 
big problems I know of in Cambodia where people's property is 
being stolen, and it is being handed over to cronies of Mr. Hun 
Sen, both national and international cronies, I might add.
    So, thus, we need a list from you. We need the Cambodian 
community to provide us a list of specific corporations and 
individuals, and then we can work on legislation that will 
require our State Department to investigate these particular 
individuals, and basically will be able to tell us, does this 
person deserve specific sanctions? Like when I say this is sort 
of the Magnitsky Act, but I think it goes beyond that, because 
this is just simply a situation where we also are talking about 
economic crimes as well as political crimes and as well as just 
regular criminal activity by people murdering their opposition.
    So if you can give us, let's say out of this hearing that 
we get a commitment to get some names of people that we then 
can ask for and legally require our State Department to do an 
analysis of what the particular person has done and to verify 
that it will be justified for sanctions against the individual. 
So that is one thing I would hope would come out of this today.
    And, again, let me just say that it is not just the United 
States that isn't going to do it for you. It is not Japan that 
is going to do it for you. We also need to see some signs of 
some resistance among the Cambodian people to their government. 
It is not their government. If it was their government, we 
wouldn't want resistance to it. It is a clique that is holding 
power by force and corruption, and they are not your 
government. They are gangsters, and we need to recognize that. 
And gangsters understand two things: Brute force and a deal.
    Now I am going to ask you one last thing about the deal. I 
want your opinion on this. Maybe the only way--I remember about 
20 years ago, I sat across from Hun Sen at a table. And I told 
him, I said, you know, we are all getting a little older here 
and we want to have time to enjoy our lives. I will make you a 
deal. I will retire from Congress if you will retire from being 
the President of Cambodia. He didn't take----
    Mr. Yoho. You are still here.
    Mr. Rohrabacher. He didn't take me up and I am here too, so 
there we go. But maybe we could, again, maybe some people 
should approach Hun Sen and just give him the deal. And I would 
like your opinion on this.
    Should we offer Hun Sen a deal, this happens with all 
tyrants, by the way, that says, get out of town and you can 
keep your ill-gotten gains. We are not going to bother you, but 
get out of there, and as compared to if we don't, we say, no, 
the only way you are going to get out of there is if we kill 
you or if we capture you and put you in a cage. That guy is 
never going to go voluntarily.
    So what do you think about offering Hun Sen a deal, get out 
of there, let the people have democracy, and you will be free 
from being prosecuted?
    I would just like a short answer from each of you, please.
    Ms. Enos. Sure. I think the critical role of the U.S. 
Government is to restore freedom to the Cambodian people. And 
so I think strengthening democratic institutions is probably 
the best way to do that. And I think that holding accountable 
individuals, including Hun Sen and other individuals within the 
Cambodian Government, is the best way to do that.
    I don't know that we need to offer him a specific deal. I 
think we just need to put pressure on key nodes and facets of 
democracy in Cambodia.
    Mr. Rohrabacher. Okay. So you would oppose the idea of just 
offering him a deal?
    Ms. Enos. Yes.
    Mr. Rohrabacher. Get out of town--get out of town and let 
us get on with our freedom.
    What about you, Ms. Kem?
    Ms. Kem. First of all, I agree with the list of individuals 
and corporations that are undermining democracy in Cambodia, 
and we will happily provide you with that list.
    In terms of a deal, I think right now he is not ready for a 
deal. You need to corner him first, and then he will propose a 
deal himself.
    Mr. Rohrabacher. Okay. Well, what if he proposes the deal? 
Let me get out of town with my money.
    Ms. Kem. His current state of mind is not about receiving a 
deal yet. It is about crushing the rest of the opposition that 
is left.
    Mr. Rohrabacher. Sure. The secret is is we want to get him 
to the point where he is either going to ask for a deal or we 
can get rid of him ourselves. But--so you are sort of hedging a 
little bit here.
    Ms. Kem. No, I don't think I am hedging.
    Mr. Rohrabacher. You said yet, we don't want to offer him a 
deal yet.
    Ms. Kem. When he is ready to make a deal, he will offer the 
deal. Right now I think what it is important, to put pressure 
on him. I agree with Olivia. And I think maybe I am more 
optimistic than some of you. I believe that individual targeted 
sanctions alone will likely be enough. You may not have to pull 
the nuclear option of removing Cambodia's trade privileges. I 
really strongly believe that.
    So let's just start with the individual financial 
sanctions. That will put tremendous pressure. And I must say 
even the visa ban alone, it impacts him a lot. It is not just 
about Disneyland.
    Mr. Rohrabacher. Okay. All right.
    Ms. Kem. It is much more than that. It makes their life 
difficult. And if you move on to financial sanctions, I think 
that alone will have enough impact for them to reconsider.
    Mr. Rohrabacher. Usually people like Hun--well, gangsters, 
I will just say usually gangster regimes understand a deal when 
there is a gun at their head, but that is another issue.
    What about it? Should we offer him a deal or not?
    Mr. Wollack. I would say, it may not only be the Prime 
Minister. There is more than just an individual. And I am a big 
believer in institutions and processes, and I like to believe 
that these types of deals would be entered into by 
democratically elected governments, that they have the right 
and the authority and the legitimacy----
    Mr. Rohrabacher. Oh, sure.
    Mr. Wollack [continuing]. To deal with those that their 
nondemocratic predecessors.
    Mr. Rohrabacher. Well, whatever deal would have to--
whatever deal would be offered, if there is a deal--I am not, 
by the way, advocating that necessarily. I just was interested 
in your opinion. But it has to be something that could be then 
accepted by the democratically elected government.
    Mr. Wollack. And I think broader negotiations are 
necessary, because I think it is beyond just one individual. I 
think you have the military. You have the deep state. You have 
other aspects of the political system that would have to be 
part of a negotiated settlement.
    Mr. Rohrabacher. Thank you.
    Mr. Yoho. Maybe we can get him a signed copy of the art of 
the deal.
    Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. And I would just like 
to say I have a deal for you too.
    I think I really like the direction that we are going in. 
We are trying to figure out what can we do now, and I think 
that is critically important. And we are seeing that there is 
no easy silver bullet to do it.
    We have talked about increasing what the State Department 
sanctions are by looking at increasing sanctions on 
individuals, on businesses that engage in these behaviors. I 
think that is very appropriate to look at.
    I would like to raise some other things that I have heard 
so far this morning to really talk about where we can go. One 
is, how do we do it to reconstitute the Paris Agreement? There 
were all the signatures. There were 15. We were one of the 
signatures. All of the people that we are talking about also 
signed the Paris Agreement that they would ensure free and fair 
elections.
    What do we do now--what do we do now to make sure--and is 
there a path to do it? I would like to hear from you.
    That is my first question. Is that an option, and how do we 
do that? Anybody want to choose to answer it? Ms. Enos.
    Ms. Enos. I think that already there are Ambassadors from 
several of the signatories of the Paris Peace Agreement that do 
meet together to sort of convene. I think we should sort of 
raise the profile of this and perhaps have foreign ministry-
level officials come together and talk about what are the long-
term as well as the short-term steps to ensuring that Cambodia 
gets back on track.
    Mr. Lowenthal. Do you see us as a Congress writing to our 
State Department and asking them to reconvene or to raise this 
issue with the foreign ministers possibly, our U.N. Ambassador 
also raising? Because I am trying to figure out how do we get 
there? And so that is very good.
    So we need some mechanism to reach these foreign ministers 
of the countries that have already signed their signatures to 
see what they think how we can work together and to entreat. So 
that is one.
    Mr. Wollack. An alternative too is the Friends of Cambodia 
group that was brought together following the 1997 coup.
    Mr. Lowenthal. Okay.
    Mr. Wollack. That group supported the negotiations that 
ultimately led for the then-UCD opposition to return to 
Cambodia. And I think even before that, however, what is 
necessary, the opposition right now, the leadership of the 
opposition, aside from being in jail, are scattered in 
Australia, Thailand, the United States. International support 
has to be extended to them so they can communicate to the 
international community. This is a coalition. This is not a 
single party. And they have to communicate with their 
supporters in the country. They have to communicate with the 
international community.
    Right now, the government is the only body that is 
communicating in multilateral settings. And they have to begin 
discussing and convening to discuss how they would return to 
Cambodia, under what conditions. And the international 
community, Friends of Cambodia, can help that happen as well.
    Ms. Kem. I am largely exploring myself the path to revive 
the spirit of the Paris Peace Accord, and I believe it may fall 
under the jurisdiction of the U.N. Security Council. So I am 
trying to meet with the missions at the U.N. who have 
membership, permanent membership in the National Security 
Council. And I think they have the authority or more, I would 
say more obligation about reviving the Paris Peace Accords. So 
I think that is one way to look at it.
    And I agree with Olivia about at least you can convene 
minister, foreign minister-level of the key signatories. It 
doesn't have to be all the countries. And right now, even on 
ambassadorial level, it is not that coordinated yet. So I think 
that is the message that each government or the U.S. 
Government, I believe maybe the French Government as well can 
begin, can start to look into.
    Mr. Lowenthal. Following that, talking about this 
international consortium, whether it was through the Paris--and 
I think it was you, Mr. Wollack, talked about trade. Now, we 
are talking about individual sanctions from the United States, 
but I think also you mentioned that the vast majority of 
Cambodians' exports go to either the United States, the EU, or 
to Japan. How can we use that as leverage, that kind of trade 
that goes, in terms of trade agreements or other things? Maybe 
you can explain or anyone else. The leverage that we have is 
that we are buying all their goods. It is not just from the bad 
folks. We are buying all the Cambodian goods, EU, United States 
and Japan. How do we use that? Do you have some ideas?
    Mr. Wollack. Well, I am not a trade expert, but what I 
would recommend, there are a lot of options of how to tie trade 
in. The international financial institutions, by the way, put a 
number of loans on hold to Cambodia because of land expulsions. 
They then extended it a little later and they came under 
criticism.
    So the international financial institutions have a role to 
play here too when it comes to investment opportunities in the 
country. But I think on the trade issues, there are a variety 
of options, but I think this is an issue that requires 
consultation with the Cambodians first before we get into how 
to do it, to determine what they feel comfortable with so it 
doesn't harm the Cambodian people.
    And different democratic forces in different countries take 
different positions on this issue, but I think they should be 
sort of the driving force in the types of recommendations that 
they would make to the international community on the issues of 
trade.
    Ms. Kem. I think you can first start by the reviewing 
process. Reviewing, identifying the violation, and then do a 
recommendation and communicate that very clearly and strongly 
to the Cambodian Government. And, again, I am optimistic and I 
think that alone will be enough.
    And I wouldn't call that a bluff or a threat either. It is 
just preparing ground. If you really need to pull it, if the 
actions by the Cambodian Government really violate those terms 
and conditions of the trade, then you may have to pull--to 
cancel the trade.
    But I think reviewing, it is very important to start the 
reviewing process. And I urge the same thing with the EU as 
well. Both the EU and the U.S. can start reviewing the trade 
privileges and the violation that the Cambodian Government is 
conducting.
    Ms. Enos. I think it is critical that we be as targeted as 
possible in what we are reviewing and what we are thinking of 
doing, in terms of action toward Cambodia. One of the concerns 
that I have with doing a broader trade review, which I agree 
with Mona would be good to review it.
    But to actually revoke all those trade preferences is that 
it is not clear that it is a direct response to threats to 
democracy and human rights. When you target specific 
individuals, when you review democracy assistance, you are 
considering things that are directly relevant to the challenges 
at hand. And I think that sends a much clearer message that 
U.S. policy will respond in kind to the ways that there are 
violations that are occurring.
    Mr. Lowenthal. Thank you, Mr. Chair. Do I have any time 
left or----
    Mr. Yoho. Yes, go ahead.
    Mr. Lowenthal. Thank you.
    The one other question is, you know, I have also talked 
about, you know, we do provide a significant--I think the 
chairman mentioned the amount of aid that we have given in 
terms of foreign aid over.
    But it seems to me, in my understanding--I would like to 
hear from the panel--that U.S. foreign aid primarily has gone 
to NGOs and to organizations trying to bring about change in 
Cambodia rather than directly to the government. And that if we 
look at restricting foreign aid, it may not impact the 
government as much as those people that are already seeking 
democracy.
    So I would like to know do you see that as, you know, 
something that we should be very much aware of if we move in 
that direction also? And I would like to hear your comments on 
that.
    Ms. Enos. I think it is critical that if we are going to do 
a review of our democracy programming that we make sure that we 
keep in place programs that encourage development of civil 
society and encourage the development of democratic 
institutions.
    I think it is true that a lot of the aid does go toward 
NGOs. And this brings me to one point that I think is critical. 
Even though the U.S. has withdrawn support for the 2018 
elections, I think it is still critical that some of these 
election-monitoring NGOs be allowed, possibly even encouraged, 
to operate, just without U.S. assistance, because I think we 
need to be able to get a pulse on to what extent democratic 
institutions in Cambodia have regressed, and also to sort of 
get a pulse on what is the public opinion in Cambodia toward 
Hun Sen, toward the CPP. And I think if you don't have 
election-monitoring organizations from the U.S. or from other 
Western governments there, you will lose that critical insight.
    But even still, I think that is still reason to review our 
democracy programming in Cambodia and make sure that it is 
achieving the outcomes that we want and that it is bolstering 
the right institutions, not being diverted, because aid is 
always fungible. So watch that.
    Mr. Lowenthal. Thank you.
    Ms. Kem. I would say that do not underestimate your 
leverages. If you look at, was it last month when the U.S. 
announced it was pulling support for demining for the National 
Commission, CMAC--I can't think of the full name now--and 
giving that money instead to NGO who also work on demining, 
that alone got the Cambodian Government panicking. And that is 
only I believe $2 million a year. You would think that is a 
very small number of money in the U.S. context. But I believe 
that the aid that goes directly--I am talking about the one 
that goes directly to Central Cambodian Government, if you cut 
that, it will have an impact.
    Sure, they will supplement that either from China or from 
other sources, but that would still hurt them and hurt the 
Cambodian Government itself, and would have to reconsider--I 
think they will have to reconsider their action.
    And I agree with Olivia also that the U.S. should still 
continue to monitor the electoral environment in the case that 
the election go forward and regardless what kind of election we 
would have in 2018. So I think an election monitoring program 
is still very important, because you want to document what is 
going on, to have an opinion on it, regardless of the 
circumstances.
    Mr. Wollack. I would just add that monitoring the election 
process by citizen monitoring groups does not necessarily 
legitimize the process; rather, it legitimizes themselves. And 
so the worst thing is to withdraw assistance so they are under 
extraordinary pressure by the government. It would be even 
worse if the international community suddenly withdrew support 
for these groups.
    There are many other areas in assistance that we have 
provided Cambodia over the years. We funded projects in the 
field, as Mona said, in demining, but also agriculture, 
education, and public health. We have helped develop a labor 
framework and a $100 million travel industry. We supported 
Cambodia's cultural heritage. So there is a myriad of programs, 
I think important programs over the years that have had some 
important impact, and those I think can certainly be reviewed.
    Mr. Lowenthal. Thank you. And just as I yield back, I would 
just like to say, in addition to the statements that you have 
done at the beginning, you have provided us with a number of 
specific recommendations. It would be very helpful if you could 
provide those to the committee or to members of the committee, 
because really, that is where the next step is.
    And we are trying to figure out what is the next step, and 
you have a wealth of information that you have provided us. And 
I would like it as concretely as possible to provide to the 
committee. Thank you.
    Mr. Yoho. Thank you. I appreciate your extra input. We 
allowed people to go over extra because we are down to a few 
people, but it is more engaging this way and we are getting 
more information out.
    We are going to go back to Mr. Rohrabacher. He has some 
comments.
    Mr. Rohrabacher. Just a couple thoughts. And if we have a 
list of names of people that should be investigated and to see 
if they are engaged in human rights abuses, but also in total 
corruption and harmful corruption to their society, those names 
should be provided to the chairman of this subcommittee. He has 
a staff, and we have just talked about it and the staff will 
look at that and make sure that we follow through with 
legislation, talking to the State Department. Then you have the 
staff here would be able to follow through and make sure we get 
something done there.
    Second of all, about general sanctions versus specific 
sanctions. I am sorry that when you have a dictatorship, do you 
think that Hun Sen would give a damn about whether or not some 
people were being hurt down in his country by a sanction? Do 
you think he does? No. Why should he? In fact, his gang is 
buffeted. They are not going to get--they are not going to not 
have an extra bowl of rice because of sanctions. They have 
already got their money and they have got--and whatever income 
is going on. They are the ones who are ripping off the profit 
of the whole country rather than having it become part of the 
ownership of the people.
    And number two, of course, if there were any sanctions that 
did--general sanctions, another monstrous gangster regime 
called Beijing will step in and take care of, oh, well, we will 
come in and do this. And I am sorry, all the really good 
industries that you were talking about that were--you know, I 
am sure that it is Hun Sen's buddies that have got the permits 
to operate those particular businesses. That is the way it 
works.
    And, again, you have got to hold people accountable. I do 
think the people of Cambodia will reach a breaking point where 
they will have to at some point say, we are going to be engaged 
in something that will force Hun Sen out and we can't just rely 
on other people, whether they are Japanese-Americans or ASEAN 
friends or whatever.
    The people of Cambodia either are going to stand up to Hun 
Sen and kick his butt out of there or he is going to continue 
in power. We can, put even, what I am suggesting by holding 
specific people accountable for their crimes, I don't think 
that will result in Hun Sen running off unless, of course, a 
deal is made, which, of course, we thought about that too.
    Well, thank you very much, Mr. Chairman.
    Thank you to the witnesses as well.
    Mr. Yoho. Well thank you for both of your input. Thank you. 
Let me ask real briefly, how effective is Radio Free Asia, 
Voice of America, or other transmissions into Cambodia, in your 
opinion, Ms. Enos?
    Ms. Enos. Radio Free Asia and Voice of America are critical 
to ensuring that democracy continues to flourish in Cambodia. 
They provide an alternative news source, and they help to 
encourage the sort of domestic news sources that are already 
there.
    So I think it is really a shame that Radio Free Asia has 
had to withdraw its service, and my understanding is that VOA 
has also had to reduce what it can provide as well.
    Mr. Yoho. I would assume that most people in Cambodia know 
that CNRP has been kicked out, right? In all of the regions, 
everybody is aware of that?
    I would think they would be highly inflamed about that and 
irritated. That is a program that we think is very effective. 
Anybody have a differing opinion?
    Mr. Wollack. Particularly in the heartland of the country 
too, these outlets are extremely important.
    Mr. Yoho. Okay. And like I said in the beginning, what we 
see over and over again is the same thing playing, you know, 
the good versus evil. And I think it was 2\1/2\ years ago I was 
at--I think you were there. It was a meeting with a lot of our 
active and retired generals. And they said that the world was 
going through a tectonic shift in superpowers or world powers 
that we haven't seen prior to World War II.
    And I think we are seeing this played out. I think China is 
in another phase. I don't want to say it is phase two or phase 
three of their grand scheme. And I see them putting pressure on 
countries around the world, in this instance in Cambodia. 
Wherever there is a democracy, they see that as a threat and 
they have a hand in that. And if you see a democracy stumbling, 
falling, you can look at--China is in the background.
    How much influence, in your opinion, has China invoked on 
the current breakdown of the free elections of democracy and 
the disbanding of the CNRP? If you guys don't mind, we will 
just go through.
    Mr. Wollack, you can start. You look like you are ready.
    Mr. Wollack. Well, no. I just say that China has given a 
good deal of support. It has also--the Cambodian Government has 
reciprocated, particularly in ASEAN forums, where they blocked 
any effort to reach consensus on the South China Sea.
    It was interesting that China and Cambodia announced that 
they were going to set up a joint think tank to study color 
revolutions, because this is the narrative that somehow the 
West was trying to instigate a color revolution and domestic 
groups were as well.
    And I think if this think tank did accurate research, they 
would find out one very fundamental point, that the movements 
that rose up in places like the Philippines in 1986, in 
Kyrgyzstan, and Serbia, and Ukraine, and Georgia were the 
result of one thing, and that was a stolen election. Movements 
rose up, starting with the People Power Revolution in the 
Philippines, because authoritarian regimes stole an election. 
It had nothing to do with outside intervention.
    And so I think it serves Cambodian interests and stability 
in the country, and in terms of China its view of stability in 
the region, to have an election that is seen by the people of 
Cambodia to reflect their will.
    Mr. Yoho. Ms. Kem.
    Ms. Kem. I don't think that China can replace the role of, 
for example, the EU or the U.S. has on Cambodia's economy. 
China is not the one that is buying our products. And over 70 
percent of Cambodian exports depend on U.S. and EU market. And 
I am sure you have seen in other closed society around the 
world in the region, they can't survive on China's support 
alone.
    And then number two, do you, meaning the free world, the 
U.S. or the EU, do you sit back and allow China to go forward 
with the aggression or you fight for your space, because it is 
in your interest as well, as I made my remark earlier, to stay 
connected in the region.
    I think Cambodia could be an easy case and a good 
opportunity for the U.S. to take leadership in the region and 
to show that democracy can win. And it is very, very possible. 
I believe elsewhere in the region, it may be more difficult. In 
Cambodia, you just have to lift your finger. And, again, I am 
more optimistic than some of you. I believe that there is a lot 
of hope, and I think that it can be done very soon as well.
    Mr. Yoho. Ms. Enos.
    Ms. Enos. I think China has consistently proven a bad actor 
in Cambodia, and that is evidenced by the latest statement by 
Chinese Foreign Minister Wang Yi, which affirmed Cambodia's 
decision to dissolve the opposition party.
    Not only that, but, as Mr. Wollack referenced, in ASEAN, 
they had sort of a tit-for-tat agreement where Cambodia was, I 
mean it looks like basically paid off in order to disavow the 
South China Sea resolution that ASEAN had made. And I think it 
is to the tune of $237 million in direct aid, $90 million in 
forgiven debt, and $15 million in other forms of assistance 
that they decided to give to Cambodia.
    So I think China has proven to be a consistently bad actor 
and sort of acts with sort of impunity and with total disregard 
to what is going on in Cambodia. But I would echo Mona's 
sentiments that I think, apart from U.S. leadership--and this 
includes with forming the Paris Peace Agreement--you are not 
going to see substantive action being taken, because I think 
the U.S. needs to call upon EU partners, needs to call upon 
Japan and other signatories that have demonstrated an interest 
in seeing Cambodia get back on the track toward reform.
    Mr. Yoho. No, I think you are absolutely right. And, you 
know, China is pushing that, because they want control of that 
region. And we see them with the power of, you know, of the 
ASEAN nations. Just one nation can shut down the rest of them. 
And this is something we are looking at, you know, talking to 
the ASEAN nations and seeing if we need to kind of see what we 
can do to put pressure on an individual nation that is doing 
this, because that was about $368 million that you said that 
gave them.
    Again, this comes down to--and I wanted to talk to you 
about--you were talking about the United States has to keep 
pushing and giving them and helping with democracies and that. 
I kind of take a different angle on that. I can't give you 
democracy. I can help you get it, but you have to have the want 
and the desire.
    It is like my mom wanted me to play the piano. For 7 years, 
my mom sewed and did all this extra stuff so I could learn to 
play the piano. There was a missing factor: I didn't have the 
want at that time.
    And so I know with the Cambodian people voting where they 
were winning these elections and the momentum was with them, to 
be robbed from that, you know, we have the Cambodian people 
that are pushing for this. Then you have the Cambodian 
Government that doesn't want it.
    Because what I have seen, you know, countries that are 
authoritarian, they are afraid of empowering their people. The 
most valuable resource any country has is their people. It is 
not their gold, their jade, or any of that other stuff, it is 
their people. And when you empower their people, they will do 
well.
    Ms. Kem, you brought up that the EU, the United States, 
Canada, Japan, account for roughly 70--I have got 78 percent of 
Cambodia's exports. That is a big hand that we can influence 
better decisions, and that is what our goal is.
    And I wish you the best of luck with your father, with the 
work you guys are doing. I can't tell you how much we 
appreciate your testimonies. This meeting has gone a little bit 
long. But everybody has stayed here and this shows you the 
importance.
    Allen, do you have a followup? Any more comments? Dana?
    But, again, I can't tell you how much I appreciate it. And 
it is like I said when I came up to the table. We take the 
information you give us, we look at different areas where we 
can give recommendations to the administration, the State 
Department, or a resolution coming out from the House saying, 
we stand with these ideals and that we will stand with the 
support of the Cambodian people.
    And then we will also send the information to the Cambodian 
Government that you either choose to do business with the 
United States of America following these principles that we 
have all signed onto, or you do business with somebody else. 
And I think it is time we start playing that hand, because we 
see the hand that China is forcing, and it is not in the favor 
of democracies.
    All right. So, with that, this meeting is concluded. I 
appreciate everybody's participation and have a great day.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
                                 [all]




</pre></body></html>
